                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 110010003                                                                      Page 1 of 1



         We reviewed purchase card usage at an institution. l We requested the general ledger and supporting
         documentation for expenses paid for with a purchase card and charged to the institution's NSF
 "

         award. 2 During our review of the information, we did not identify any questionable transactions;
         therefore, further investigation was not warranted.

                   This case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
